CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Bar of this Court
and that on January 21, 2020, I caused a copy of the annexed opposition in Mark
Sokolow, et al. v. Palestine Liberation Organization and Palestinian Authority (No.
19-764) on behalf of Respondents opposing the Motion for Leave to File Amicus Curiae
Brief and Brief of Senators Charles Grassley, Representative Jerrold Nadler,
Representative Robert Goodlatte (Ret.), Senator Richard Blumenthal, Senator Marco
Rubio, Representative Theodore Deutch, Senator Thom Tillis, Representative
Kathleen Rice, and Senator Bill Nelson (Ret.) as Amici Curiae in Support of
Petitioners’ Petition for a Writ of Certiorari to be served on the counsel for Petitioners
and counsel for Amici Curiae identified below by courier, and caused an electronic
version to be transmitted to the counsel for Petitioners and counsel for Amici Curiae
identified below, pursuant to Rule 29 of the Rules of this Court. All parties required
to be served have been served.
Counsel for Petitioners Mark Sokolow, et al.:
John Patrick Elwood
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., N.W.
Washington, D.C. 20001
(202) 942-5992
john.elwood@arnoldporter.com
Counsel for Amici Curiae:
J. Carl Cecere
CECERE PC
6035 McCommas Blvd.
Dallas, Texas 75206
(469) 600-9455
ccecere@cecerepc.com
Dated: January 21, 2020

Respectfully submitted,

Squire Patton Boggs (US) LLP
Gassan A. Baloul
Counsel of Record for Respondents
2550 M Street, NW
Washington, DC 20037
(202) 457-6155
gassan.baloul@squirepb.com

